Before the Committee on Commerce, Science, and Transportation
Subcommittee on Consumer Protection, Product Safety, and Insurance
United States Senate




For Release on Delivery
Expected at               Identifying and Investigating
                          Vehicle Safety Defects
10 a.m. EDT
Wednesday
April 2, 2014
CC-2014-015




                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman McCaskill and Members of the Subcommittee:

Thank you for the opportunity to testify on the National Highway Traffic Safety
Administration’s (NHTSA) efforts to identify and investigate vehicle safety defects. As
you know, several high-profile cases of safety defects—notably at Toyota Motor
Company and General Motors—have prompted the public, Congress, and the media to
question whether the automotive industry and NHTSA’s Office of Defects Investigation
(ODI) have acted in a timely manner to address safety defects. Since 2002, our office has
issued three audit reports with recommendations to enhance ODI’s vehicle defect
identification processes. 1 Most recently, we reported major weaknesses in these
processes—including a lack of systematic procedures for tracking consumer complaints
and for documenting significant investigative decisions. At the Secretary’s request, we
plan to initiate an audit building on our previous reviews of NHTSA’s efforts to identify
and investigate vehicle safety defects.

Today, I will focus on the status of NHTSA’s actions to address major weaknesses that
we reported in 2011. In addition, I will discuss our efforts to support strong action against
companies that elect to withhold critical safety data from NHTSA.

IN SUMMARY
In 2011, we reported that ODI needed to improve its processes for identifying vehicle
safety defects. Notably, NHTSA’s central database for safety defect information did not
track the disposition of consumer complaints—ODI’s primary means for determining
whether an investigation is warranted. We identified similar weakness in processes for
determining when to use third-party assistance, documenting investigation information,
and assessing workforce needs. NHTSA has taken actions to address our
recommendations for enhancing these processes (see attachment 1). However, one
recommendation remains outstanding—conducting a workforce assessment for
determining the number and most effective mix of staff needed to achieve ODI’s
objectives. In addition, our investigative efforts can help lead to strong sanctions against
companies that withhold critical safety data from NHTSA. Investigators from the Office
of Inspector General (OIG) participated in the criminal probe of Toyota, which recently
forfeited $1.2 billion for intentionally concealing information on vehicle defects from
NHTSA. We will continue to assess NHTSA’s efforts to identify and investigate vehicle
safety defects and stand ready to investigate allegations of wrongdoing by auto
manufacturers.




1
  Review of the Office of Defects Investigation (OIG Report Number MH-2002-071), Jan. 3, 2002; Follow-Up Audit of the Office
of Defects Investigation (OIG Report Number MH-2004-088), Sept. 23, 2004; Process Improvements Are Needed for Identifying
and Addressing Vehicle Safety Defects (OIG Report Number MH-2012-001), Oct. 6, 2011. OIG reports are available on our Web
site at: www.oig.dot.gov.

                                                                                                                          1
BACKGROUND
NHTSA administers highway safety and consumer programs intended to save lives,
prevent injuries, and reduce economic costs resulting from motor vehicle crashes. The
National Traffic and Motor Vehicle Safety Act authorizes NHTSA to issue vehicle safety
standards and to require manufacturers to recall vehicles and equipment that have safety-
related defects or that do not meet Federal safety standards.

ODI conducts tests, inspections, and investigations to identify safety defects in motor
vehicles and equipment. Based on its findings, NHTSA can require manufacturer recalls
notifying the public and correcting the defects. When conducting investigations, ODI can
request that manufacturers provide data on complaints, injuries, warranty claims,
modifications, parts sales, and other items. Attachment 2 describes ODI’s investigative
processes.

To conduct its work, ODI uses NHTSA’s Advanced Retrieval of Tire, Equipment, and
Motor Vehicle Information System, or Artemis, which provides a central repository of
data on motor vehicle and motor vehicle equipment defects. Artemis captures consumer
complaints, manufacturer recalls and early warning reporting, documentation related to
safety defect investigations, and information from other Government agencies. Some
Artemis data is made available to the public through a Web site. 2

NHTSA HAS TAKEN ACTIONS TO STRENGTHEN ITS PROCESSES
FOR VEHICLE DEFECT INVESTIGATIONS
In 2011, we reported major weaknesses in NHTSA’s vehicle defect identification
processes. Specifically, ODI needed to improve its processes for (1) recommending
investigations of potential defects, (2) determining when to use third-party assistance,
(3) documenting investigation information, and (4) ensuring an adequate and well-trained
workforce. In response to our recommendations, NHTSA has implemented more robust
defect investigation processes. However, the effects of these process enhancements are
unknown and depend on whether ODI systematically uses and applies the new processes
when conducting its analyses and investigations. Additionally, NHTSA has yet to
complete a workforce assessment for determining the number and most effective mix of
ODI staff. We will continue to assess NHTSA’s processes for identifying and
investigating vehicle safety defects and will follow up on our past work as needed.




2
    www.safercar.gov

                                                                                       2
NHTSA Lacked Adequate Processes for Recommending Investigations of
Potential Safety Defects
Consumer complaints are ODI’s primary means for determining whether an investigation
is warranted. However, Artemis did not track whether complaints were reviewed within
established timelines or used to support investigations. As a result, ODI could not
demonstrate the extent to which consumer complaints prompted recommendations for
investigations. Further, ODI did not use Artemis to track evidence supporting potential
defects, and its Defect Assessment Panel 3 did not thoroughly document its decisions on
which risks to investigate. For example, ODI did not upload prepared investigation
proposals 4 into Artemis or track their disposition using a central database. As a result, the
factors and analyses ODI considered when determining whether to open investigations
were not delineated, leaving ODI’s decisions open to interpretation and subject to
questions after the fact.

We made three recommendations to address weaknesses in ODI’s processes for
recommending investigations, and NHTSA took sufficient action to address these
recommendations (see table 1). For example, NHTSA modified Artemis to track
complaint reviews and established a case management system to maintain pre-
investigation data.

Table 1. Status of OIG Recommendations Related to NHTSA’s
Processes for Recommending Investigations of Potential Safety
Defects
Recommendation                           Status               Actions Taken
Revise the pre-investigation             Closed               ODI provided documentation demonstrating that:
processes to ensure that the             June 19, 2012       • Artemis tracks complaint reviews (who and when),
review of each complaint is
recorded and that complaints are                             • all relevant complaint numbers are included in the
tracked to associated                                          resume for each phase of an investigation, and
investigations in Artemis.                                   • investigation process documents have been
                                                               updated to reflect these policy changes.
Establish pre-investigation              Closed               ODI provided documentation demonstrating that a
processes for retaining and              Dec. 5, 2012         process for using a case management system had
storing pre-investigation records,                            been established to maintain pre-investigation data.
such as investigation proposals
and insurance company data.




3
  NHTSA’s Defect Assessment Panel reviews proposals for investigation and decides whether to open an investigation.
4
  An investigation proposal is a report that summarizes the available information on a potential safety defect. The proposal
includes but is not limited to early warning data, manufacturer service bulletins, and complaints.

                                                                                                                          3
Recommendation                         Status          Actions Taken
Require that decisions made and        Closed          ODI provided documentation demonstrating that:
actions taken by ODI Defect            Dec. 5, 2012    • Defects Assessment Panel minutes are added to a
Assessment Panels are                                    standardized form and uploaded to the repository
recorded, including justifications                       for the relevant issue evaluation (IE),
for not proceeding to
investigations.                                        • IEs that do not proceed to investigation are
                                                         marked with one of two codes: “minimal hazard
                                                         indicated” or “no actionable trend indicated,” and
                                                       • specifics concerning panel dates and IE
                                                         dispositions are recorded in Artemis annotations
                                                         for the appropriate IEs. These data can be
                                                         analyzed and presented in report form.
Source: OIG analysis of NHTSA documentation

NHTSA Lacked a Systematic Process for Determining When To Involve
Third-Party Assistance
ODI investigators did not have direct access to test facilities and relied on third parties to
test for potential mechanical or electronic defects and validate information provided by a
vehicle manufacturer. However, not all investigators requested third-party assistance
during investigations, and NHTSA lacked a process for identifying the need for third-
party assistance.

We recommended that NHTSA establish a systematic process for determining when to
use third parties to verify manufacturer information or assist in identifying a potential
defect (see table 2). NHTSA has taken action to satisfy our recommendation.

Table 2. Status of OIG Recommendations Related to Third-Party
Assistance
Recommendation                         Status          Actions Taken
Establish systematic processes         Closed          ODI provided revised office procedures, including a
for determining when a third           Mar. 27, 2012   framework for obtaining third-party resources.
party or the Vehicle Research
Test Center should be used to
verify manufacturer information
or assist in identifying a potential
defect.
Source: OIG analysis of NHTSA documentation




                                                                                                              4
ODI Did Not Properly Document Investigations
ODI did not have criteria to ensure proper documentation for investigations. Specifically,
some investigation files did not include documentation of meetings with manufacturers
and third parties, consumer complaints, testing needs, and justifications for closing
investigations. For example:

• Eleven of the 42 NHTSA investigation cases we sampled involved meetings with
  manufacturers; however, ODI did not always document the information exchanged
  during the meetings or the decisions ODI made based on the meetings. In addition,
  21 cases included some type of vehicle testing, but ODI did not document its
  determinations of testing needs.

• ODI recorded only the number of complaints, not the complaint identification
  numbers, which did not allow ODI to identify the specific complaints.

• For one investigation we sampled, ODI did not provide sufficient documentation to
  justify closing the investigation. In our interviews with ODI officials, we learned that
  the investigation was closed based on factors such as trending, frequency and severity
  rates, forecast analysis, and a review of crashes, injuries, and deaths. While the
  justification provided supported closing the case, ODI agreed that such evidence
  needs to be documented in the case file.

NHTSA has revised its investigative process to establish criteria for documenting
evidence, as we recommended. Specifically, NHTSA established an “Investigation
Documentation Checklist” (see table 3).

Table 3. Status of OIG Recommendations Related to Fully
Documenting Investigation Decisions
Recommendation                      Status         Actions Taken
Revise the ODI investigation        Closed         ODI provided documentation that it developed an
process to establish criteria for   Mar. 1, 2013   “Investigation Documentation Checklist.” This
documenting evidence, such as                      checklist is a process for documenting evidence
associated complaints, meetings                    collected by the ODI investigators—including
with manufacturers and other                       consumer complaints, meetings with manufacturers
stakeholders, and third-party                      and third parties, and testing.
analysis or testing conducted.
Source: OIG analysis of NHTSA documentation




                                                                                                  5
NHTSA Lacked Processes for Ensuring an Adequate and Well-Trained
Investigative Workforce
To ensure NHTSA has an adequate workforce to investigate vehicle defects, we
recommended that the agency conduct a workforce assessment to determine the number
of ODI staff and the specialized skills needed to conduct these investigations. NHTSA
plans to complete its assessment by May 30, 2014 (see table 4).

We also recommended that NHTSA develop a formal training program to ensure its
investigators stay current on technology advancements in the automotive industry.
NHTSA developed a program that satisfies our recommendation.

Table 4. Status of OIG Recommendations Related to Workforce
Assessments and Training
Recommendation                    Status         Actions Taken
Conduct a workforce               Open           ODI estimates that it will complete its workforce
assessment to determine the                      assessment by May 30, 2014.
number of staff required to
ensure that ODI meets its
objectives and determines the
most effective mix of staff.
Develop a formal training         Closed         ODI provided a copy of its new training plan.
program to assist ODI staff in    May 29, 2013   According to NHTSA officials, this plan will assist
acquiring knowledge and staying                  ODI in the development of its current and future
abreast of ODI processes and                     workforce; ensure the continuity of institutional
current and new automobile                       knowledge; and ensure that investigators and other
technologies.                                    ODI staff become proficient in new automotive,
                                                 investigative, and vehicle safety technologies.
Source: OIG analysis of NHTSA documentation

We believe the enhanced processes NHTSA put in place to address our
2011 recommendations will put the Agency in a better position to identify and investigate
vehicle safety defects—to the extent that ODI uses and applies these process
enhancements when conducting its analyses and investigations. In response to the
Secretary’s request, we will assess whether NHTSA has further opportunities to improve
its oversight and performance.




                                                                                                       6
INVESTIGATIVE EFFORTS HAVE RESULTED IN STRONG SANCTIONS
FOR WITHHOLDING CRITICAL SAFETY DATA FROM NHTSA
While continued focus on NHTSA’s processes will help ensure the Agency identifies and
addresses vehicle safety defects, NHTSA cannot do its job effectively if auto
manufacturers withhold critical safety information. Working with our law enforcement
and prosecutorial partners, our work can help lead to strong action against companies that
elect to withhold information from NHTSA. Most recently, our investigators participated
in the multi-agency criminal probe of Toyota, subpoenaing and reviewing approximately
400,000 documents and interviewing more than 100 individuals.

The Toyota case perfectly demonstrates the risk involved when automakers fail to timely
report safety defects to NHTSA. The Toyota case involved two unintentional acceleration
issues. The first related to floor mats trapping gas pedals and causing unintended
acceleration—sometimes to high speeds. In fall 2009, Toyota reported that it had
addressed the root cause of the unintended acceleration by issuing a safety recall of
eight Toyota and Lexus models for improperly secured or incompatible floor mats.
However, our joint investigation with the Federal Bureau of Investigation and the
Manhattan, NY, U.S. Attorney’s Office revealed that, at the time the statements were
made, Toyota did not recall some cars with design features that made them equally
susceptible to floor-mat entrapment as some of the recalled cars. We also determined
that, only weeks before these statements were made, Toyota had also taken steps to hide
from NHTSA a second problem involving accelerators getting stuck at partially
depressed levels, known as sticky pedal.

Ultimately, Toyota admitted that it concealed and made deceptive statements about safety
issues affecting its vehicles, misleading U.S. consumers and NHTSA. Toyota was
charged with wire fraud for providing the misleading information, and on
March 19, 2014, the Department of Justice announced a criminal charge against Toyota
and a deferred prosecution agreement that requires Toyota to forfeit $1.2 billion—the
largest penalty of its kind ever imposed on an automotive company. The deferred
prosecution also imposes an independent monitor to review and assess policies, practices,
and procedures relating to Toyota’s safety-related public statements and reporting
obligations.

This case sends a clear message to auto manufacturers: Safety is and will remain DOT’s
and OIG’s highest priority. To this end, we expect the industry to be vigilant and
forthcoming to keep the public safe.

This concludes my prepared statement. I will be happy to answer any questions you or
other Members of the Subcommittee may have.




                                                                                        7
ATTACHMENT 1. STATUS OF 2011 OIG RECOMMENDATIONS FOR
NHTSA’S VEHICLE DEFECT INVESTIGATION PROCESSES

Recommendation                       Status          Actions Taken

Processes for Recommending Investigations

Revise the pre-investigation         Closed          ODI provided documentation demonstrating that:
processes to ensure that the         June 19, 2012   • Artemis tracks complaint reviews (who and
review of each complaint is                            when),
recorded and that complaints are
tracked to associated                                • all relevant complaint numbers are included in
investigations in Artemis.                             the resume for each phase of an investigation,
                                                       and
                                                     • investigation process documents have been
                                                       updated to reflect these policy changes.
Establish pre-investigation          Closed          ODI provided documentation demonstrating that a
processes for retaining and          Dec. 5, 2012    process for using a case management system had
storing pre-investigation records,                   been established to maintain pre-investigation
such as investigation proposals                      data.
and insurance company data.
Require that decisions made and      Closed          ODI provided documentation demonstrating that:
actions taken by ODI Defect          Dec. 5, 2012    • Defects Assessment Panel minutes are added
Assessment Panels are recorded,                        to a standardized form and uploaded to the
including justifications for not                       repository for the relevant issue evaluation (IE),
proceeding to investigations.
                                                     • IEs that do not proceed to investigation are
                                                       marked with one of two codes: “minimal hazard
                                                       indicated” or “no actionable trend indicated,” and
                                                     • specifics concerning panel dates and IE
                                                       dispositions are recorded in Artemis annotations
                                                       for the appropriate IEs. These data can be
                                                       analyzed and presented in report form.

Third-Party Assistance

Establish systematic processes       Closed          ODI provided revised office procedures, including
for determining when a third party   Mar. 27, 2012   a framework for obtaining third-party resources.
or the Vehicle Research Test
Center should be used to verify
manufacturer information or assist
in identifying a potential defect.

Documentation of Investigation Decisions

Revise the ODI investigation         Closed          ODI provided documentation that it developed an
process to establish criteria for    Mar. 1, 2013    “Investigation Documentation Checklist.” This
documenting evidence, such as                        checklist is a process for documenting evidence
associated complaints, meetings                      collected by the ODI investigators—including
with manufacturers and other                         consumer complaints, meetings with
stakeholders, and third-party                        manufacturers and third parties, and testing.
analysis or testing conducted.


                                                                                                            8
    Recommendation                          Status              Actions Taken

    Workforce Assessments and Training

    Conduct a workforce assessment          Open               ODI estimates that it will complete its workforce
    to determine the number of staff                           assessment by May 30, 2014.
    required to ensure that ODI meets
    its objectives and determines the
    most effective mix of staff.
    Develop a formal training program       Closed             ODI provided a copy of its new training plan.
    to assist ODI staff in acquiring        May 29, 2013       According to NHTSA officials, this plan will assist
    knowledge and staying abreast of                           ODI in the development of its current and future
    ODI processes and current and                              workforce; ensure the continuity of institutional
    new automobile technologies.                               knowledge; and ensure that investigators and
                                                               other ODI staff become proficient in new
                                                               automotive, investigative, and vehicle safety
                                                               technologies.

    Other 5

    Revise the ODI investigation            Closed              ODI established processes for justifying and
    process to require justifications for   Mar. 27, 2012       documenting investigations that exceed timeliness
    continuing or closing                                       goals.
    investigations that exceed
    timeliness goals for preliminary
    evaluations and engineering
    analyses.
    Strengthen ODI’s redaction policy       Closed              ODI issued a revised redaction policy in
    and process to better protect           Oct. 13, 2011       August 2011.
    consumers’ personal information
    from public availability, such as by
    using automated redaction
    software.
    Develop and implement a strategy        Closed              ODI stated that it planned to form an informal
    for increasing coordination with        Oct. 13, 2011       working group to discuss issues of mutual interest
    foreign countries to enhance                                to the international enforcement community.
    ODI’s ability to identify safety                            NHTSA would chair the group, and the group
    defects and to exchange                                     would meet once or twice a year—with the first
    information on foreign recalls.                             meeting taking place on November 17, 2011.
    Source: OIG analysis of NHTSA documentation




5
 These 2011 recommendations are related to NHTSA’s processes for identifying and addressing vehicle safety defects but were
not discussed in the body of the statement.

                                                                                                                         9
ATTACHMENT 2. OVERVIEW OF ODI’S INVESTIGATIVE PROCESSES
NHTSA’s ODI conducts defect investigations and administers safety recalls. The
following illustration breaks down the processes by which ODI conducts defect
investigations and administers safety recalls.




Source: OIG analysis of ODI processes

The first phase, pre-investigation, involves the Defect Assessment Division, which
screens consumer complaints, external manufacturer communications, and other
information related to alleged safety defects. The screenings provide ODI the basis for
determining whether to open an investigation, grant a petition for a defect investigation,
determine the adequacy of safety recalls, and grant a petition for a public hearing on the
adequacy of a safety recall. The pre-investigation phase also involves the Early Warning
Division, which conducts preliminary reviews and analyses of early warning reporting
information manufacturers submit to identify potential risks within these documents and
alerts the Defect Assessment Division. When the Defect Assessment Division identifies a
potential risk, it prepares an issue evaluation package. Ultimately, each IE is proposed for
investigation, resolved with an action by the manufacturer, or reverted to a less active
status for monitoring for future action. If the Defect Assessment Division determines that
it needs to conduct additional discussion to determine the status of an IE proposed for
investigation, the Defect Assessment Division can present the IE before the Defect
Assessment Panel. 6

6
  The Defect Assessment Panel includes the Associate Administrator for Enforcement, ODI management and staff, a
representative from the NHTSA Chief Counsel Office, and other individuals that may have related knowledge or experience of
the issue under review.

                                                                                                                       10
The Defect Assessment Panel reviews IEs to decide collectively whether to open an
investigation. The panel draws on the institutional knowledge and experience of ODI to
identify high-priority cases. Although complaints and some early warning data are
available to the public, ODI does not publically release pre-investigation analyses and
decisions.

Defect petitions prompt some investigations. For example, any interested person may file
a petition requesting that ODI conduct an investigation into an alleged safety-related
defect in a motor vehicle or motor vehicle equipment. ODI can deny or grant a defect
petition, or investigate it based on office workload and the nature of the petition. If ODI
denies a defect petition, it sends a denial letter to the petitioner and publishes the action in
the Federal Register. If ODI grants a defect petition, it sends a grant letter to the
petitioner and opens an investigation.

The second phase, investigation, involves the formal investigation of alleged safety
defects and recall adequacy. One of three ODI divisions—the Vehicle Control Division,
Vehicle Integrity Division, and the Medium and Heavy Duty Vehicle Division—conducts
investigations. The Vehicle Integrity Division investigates light vehicles, passenger cars,
door integrity, airbags, seat belts, and child restraints. The Vehicle Control Division
investigates engines, throttle, steering, brakes, suspension, wheels and tires, and control
vehicle dynamics. The Medium and Heavy Duty Vehicle Division investigates all
vehicles over 10,000 pounds, school buses, emergency vehicles, and motorcycles. The
results of ODI investigations are available to the public.

Generally, investigations are conducted in two phases—a preliminary evaluation (PE)
and engineering analysis (EA). A PE is the first phase of an investigation. During the PE,
ODI sends an information request letter to the manufacturer, reviews applicable
information, and conducts tests as needed. A recall query (RQ) is an investigation opened
on a recall because the recall remedy appears inadequate or the scope of the recall
appears to be insufficient. ODI conducts the RQ in a manner very similar to the PE, and
attempts to complete the PE or RQ within 4 months. ODI may close a PE or RQ if it
determines that further investigation is not warranted, or because the manufacturer has
decided to conduct or expand a recall. If ODI determines that further analysis is
warranted, the PE or RQ is upgraded to an EA. An EA is the second phase of an
investigation. During the EA, ODI conducts a more detailed and complete analysis of the
character and scope of the alleged defect. ODI attempts to complete the EA within 1 year
or 360 days. If the results of the EA lead ODI to believe that there is a safety-related
defect and the manufacturer has not conducted a recall, a Multi-Disciplinary Review
Panel will be convened to consider what further action would be appropriate.

The Multi-Disciplinary Review Panel consists of senior NHTSA officials and
representatives from ODI. If the panel agrees with ODI’s assessment that a recall is
warranted, it issues a Recall Request Letter to the manufacturer calling for a mandatory
recall.

                                                                                             11
The third phase, post-investigation, involves the Recall Management Division, which
monitors safety defect and noncompliance recalls assessing manufacturers’ compliance
with statutory and regulatory requirements. A manufacturer initiates a safety-related
recall when it determines that any of its products contain a safety-related defect or fails to
comply with a Federal Motor Vehicle Safety Standard. A safety-related recall involves
notifying NHTSA, owners, purchasers, and dealers of a safety defect, and providing a
free remedy. Once the manufacturer notifies NHTSA that it is conducting a recall, the
manufacturer must submit six quarterly reports to the Recall Management Division on the
progress of the recall. If any of those quarterly reports identify issues with a recall, the
Recall Management Division can conduct an audit query, equipment query, or timeliness
query. These queries assess the adequacy of the recall. If the recall has a relatively low
completion rate, the Recall Management Division may initiate an audit query (AQ). The
intent of an AQ is to ensure that all safety recall campaigns comply with all statutory
requirements by examining the procedures and processes used by a manufacturer to
conduct a safety recall. If the AQ questions the installation of a defective component in
vehicles not subject to a recall, an equipment query (EQ) may be initiated. The intent of
an EQ is to ensure the identity and recall of all the affected vehicles or motor vehicle
equipment. If the Recall Management Division questions the timeliness of the recall, it
may initiate a timeliness query (TQ).




                                                                                           12
